go 5 4 7 cKU

(ft- 'U

i'M-'-NfiO fi&u/fc
w t: L gg;^1 ggVg::""

No.

IN THE SUPREME COURT
OF THE UNITED STATES

FILED
JUL 0 6 2020
ARCHIE CABELLO,

SUPREgl°gTo|jRTLnRK

Petitioner,

DC No. 3:1 O-cr-482-MO

v.

USCA 19-35901

UNITED STATES OF AMERICA,
Respondent

Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

PETITION FOR WRIT OF CERTIORI

QUESTIONS PRESENTED
1) When the government moves to strip a defendant of his
counsel
of choice, does the court have any obligation to hold
a hearing
to inquire and determine what the facts are vis-a-vis Cuyler
v. Sullivan? If not, does this meet the constitutional minimum
for right to counsel of choice under the sixth amendment?
2) Whether a forged, fraudulent, altered plea petition in
apparent
violation of federal law under 18 USC §1512(c)(l) rises to the
level of 'extraordinary circumstances ' sufficient to satisfy
the standards of 60(b)(6)?
3) Whether a judgement based on a plea that was tampered with
is from its inception, a null and void judgement, and sufficient
to satisfy the standards of 60(b)(4)?
4) Whether when a court disregards or ignores all of the defendants
motions, pleas, complaints, i . e . ,
refuses to let the defendant
be heard does this meet the constitutional minimum for
due process
under the Fifth Amendment?
5) Does an appointed defense panel attorney who is the
putative
'author' of a document have any obligation to inform the
court
who tampered with the document, i.e., the plea petition?
6) Whether the panel of circuit Judges M. Smith and Lee
Introverted the statutory order of operations, by applying the
wrong standard in denying Cabello s petition for Certificate
of Appealability, in contravention of the controlling and
unambiguous hold of the Supreme Court in Buck v Davis that
clarifies the standard for COA.

TABLE OF CONTENTS
TABLE OF CONTENTS

i

TABLE OF AUTHORITIES

i-iv

CONSTITUTIONAL PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

1

JURISDICTION

2

LEGAL ANALYSIS

3

DENIAL OF COUNSEL OF CHOICE

3

DENIAL OF SELF-rREPRESENTATION

6

PLEA PETITION

8

GOVERNMENT RESPONSE TO 60(b) MOTION

24

FRAUD ON THE COURT

26

STANDARD OF REVIEW

29

REASONS FOR GRANTING

30

CONCLUSION

38

APPENDIX A
District and Circuit Court ORDERS

1-5

APPENDIX B
Plea Petition

1-9

APPENDIX C
Government Response to 60(b) motion

1-4

APPENDIX D
Transcripts, letters, docket, & documents

1-29

TABLE OF AUTHORITIES
Cases
Armant v. Marquez
772 f.2d 552, 557 [618 F.3d 1054] (9th Cir. 1985)
Bruce
976 F.2d at 557-58

8
20

Buck v. Davis
580 US__ 137 S.ct__ , 197 L.Ed 1 2017 U.S. Lexus 1429
i

3, 24

Cuyler v. Sullivan
466, US 335, 64 L.Ed. 353, 100 S.ct. 1708

4, 6, 36

Farias
618 F.3d 1099, 1052, 1053 (9th Cir. 2011)

8
22, 27

Faretta
Gillet
249 F.3d 1200 (9th Cir. 2001)

7

Gonzalez v. Crosby
545 US 524, 535, 125, S.ct. 2641, 162 L.Ed (2005)

3, 38

Gonzalez-Lopez
548 US 140, 126, S.ct. 2557, 165 L.Ed.2d 409

6

RE: Grin
1 12 F 790, (9th Cir. 1901)

7

Haines v. Kerner
404 US 519 [30 L.Ed.2d](1972)

37

Hawk v. Olsen
(1945) 326 US 271, 90 L.Ed 61, 66, S.ct. 116

11

IBEW-NECA Pension tr. Fund v. Flores
519, F.3d 1045, 1047 (9th Cir. 2008)

19

Martinez v. Ryan
566 US 1, 132 S.ct. 1911, 185 L.Ed 272 (2012)

3

McCarthy v. United States
349 US 459, 22 L.Ed 418, 89 S.ct. 1166 (1969)

31

Miller v. Cocrell
537, US 322, 123, S.ct. 1029 (2008)

38

Milton v. Morris
767 v.2d 1443, 1446 (9th Cir. 1985)

8

Neder v. United States
at 527 US 8......................

35

Ortega-Ascanio
376 F. 3d 878v-833 (9th Cir. 2008)
Parker v. North Carolina
(1971) 387 US 790, 25 L.Ed.2nd 785, 90 S.ct 1458
Powell v. Alabama
287 US 45, 60, 53 S.ct 55 L.Ed 158 (1932)

ii

14, 16
11
8

Pumphrey v. K.W. Thompson Tool Company
62, F.3d 1128, 1130 (9th Cir. 1995)...

34

Santobello
404 US 257, 30 L.Ed 427, 92 S.ct. 495 (1971)

11

Smith v. O'Grady
312, US 329, 85 L.Ed 859, 61 S.ct. 572

11

Strickland v. Washington
466 US 668, 689, 80 L.Ed 674 (1984)

23

Texas v. New Mexico
482, US 124, 128, 107 S.ct. 2279 96 L.Ed.2d 105 (1987)

20

Travino v. Thaler
569 US , 133 S.ct. 1911, 185 L.Ed.<*pg.10> 2d 1044 (2013)

3

Turney v. Ohio
273 US 510, 523 (1927)

35

US v. Cronic
466 US 648, 80 L.Ed.2d, 104, S.ct. 2039 (1984)

23

U.S. v. Goodall
236 F.3d (DC 2001 )

9, 21

U.S. v. Harvey
791 F.2d (4th Cir. 1986)................................................................................

21

U.S. v. Indoor Cultivation Equip, From High Tech Indoor Supply
55 F.3d 1311, 31 Fed R.Serv.3d(Callaghan) 832(7th Cir. 1995)....39
U.S. v. Sineng-Smith........................................................................
U.S. v. Wately
987 F.2d 841; 300 US (DC 1993)

34, 40
9

STATUTES
28 USC §1651

2

(a)

13, 19, 29, 32

18 USC §1512(c)(1)
18 USC §1519

14

28 USC §351(a).................................

22

18 USC §1512(j )...............................

29

18 USC §1515(a)(3)(A)(B)(C)(E)

32

iii

RULES
60(b)(6)

1, 21, 24, 32, 38, 39

60(b)(4)

1 , 39

11(b)(1)

9

11(c)(1)

20

11(c)(5)(C)

21

8(b)(6)

25, 39

Supreme Court Rule 10(a)

26, 38

11

28

60(d)(1)(3)

29

11<C)(5)(A)(B)(C)

31

Circuit Rule 1 0-2

32

OTHER AUTHORITIES
23, 37

Youtube Case #13-30080
76 ALR Fed. 619

23

Evid. Rule 103

23

L.Ed Digest §289

29

L.Ed Digest §164

38

iv

COMES NOW, Archie Cabello respectfully seeking leave of
this honorable court to entertain the above referenced case
in which he invokes Rule 60(b)(6) and by extension implicates
Rule 60(b)(4) for the proposition, this rule is not only consistent
with case law, but it also comports with the fair and equitable
administration of justice.
It is settled that equitable relief is relief that is avail­
able pursuant to an independent action in cases of unusual and
extraordinary circumstances. As in this case they are reserved
for cases of injustices.
CONSTITUTIONAL PROVISIONS INVOLVED
'In all criminal prosecutions, the accused shall enjoy
the right...to have assistance of counsel for his defense.'
U.S. CONST., Amend. VI.
'No person shall be... deprived of life, liberty, or property
without due process of law...' U.S. CONST., Amend V.
STATEMENT OF THE CASE
On December 2, 2010 the grand jury handed down a fifty
one count sealed indictment accusing Cabello, his wife Marian
and his adult son Vincent.
In due course Cabello's co-defendants entered into plea
and co-operation agreements with the government.
Cabello was charged consipiracy to commit bank larceny,
making false statements on Credit Cards, Count 2 charged Cabello
with a 2005 bank larceny, Count 3 possession of stolen bank
funds, Counts 4, 9, 10, 11, and 12 each charged Cabello with
making false statements on credit card applications. Count 15
with filing false tax returns. Counts 16*50 accused Cabello
1

of money laundering. Finally count 51 charged Cabello with
conspiracy to commit money laundering.
Cabello then agreed to plead to count 1 and count 51 of
the indictment. Both are conspiracy counts.
Three days later panel attorney Mr. Smith came to see Cabello
with a copy of the plea that had added counts 3, 4, 9, 11, 12,
and 15. This wholesale alteration of the plea is the crux of
the argument. The plea was altered without Cabello’s knowledge
or input.
On March 20, 2013.Cabello was sentenced to 240 months on
Count 51, concurrent with 240 months on forged counts 4, 9,
11, and 12. On forged count 15, 36 months and finally 60 months
on cont 1, all concurrent.
Also 5 years supervised release and restitution in the
amount of $3,755,000. Counts 2 and 10 and 16 50 were dismissed
on motion of the government. Since the money laundering counts
were mere window dressing and no money had been laundered, the
money laundering counts were dropped.
Cabello is presently detained at FCI La Tuna in Anthony,
TX.
JURISDICTION
This court has jurisdiction pursuant to 28 U.S.C. §1651(a),
the Supreme Court and all courts established by Act of Congress,
may issue all writs necessary or apporpriate in aid of their
respective jurisdictions and agreeable to the usages and priciples
of law.

2

LEGAL ANALYSIS
In Buck v. Davis. 580 US

, 137 S.ct

, 197 L.Ed. 1, 2017

US Lexis 1429, the defendant Buck sought in 2014 to reopen a
2006 judgement by filing a motion under Federal Rule of Procedure
60(b)(6). He argued that the Supreme Courts decisions in Martinez
v. Ryan, 566 US 1, 132 s.ct. 1309, 182 L.Ed 272 (2012), and Trevino
v. Thaler,f 569 US

, 133 s.ct. 1911, 185 L.Ed. <*pg. 10> 2d 1044

(2013) had changed the law in a way that provided an excuse
for his procedural default, permitting him to litigate his claim
on the merits. In addition to this change in law, Bucks motion
identified ten other factors he said constituted "extraordinary
circumstances" required to justify reopening the 2006 judgement
under the rule. See Gonzalez v. Crosby, 545 US 524, 535, 125
s.ct. 2641, 162 L.Ed.2d 480(2005).
The District Court denied the motion, and the Fifth Circuit
declined to issue the certificate of appealability (C0A) request
by Buck to appeal that decision. The Supreme Court granted
certiorari and in a 6—2 decision reversed.
DENIAL OF COUNSEL OF CHOICE
The following involves one or more questions of exceptional
importance.
Mr. Gerald Boyle of Milwaukee, WI., had been Cabello's
lawyer for 15 years and Mr. Boyle indicated that he would be
representing Cabello in this case. The government responded
by threatening Mr. Boyle with prosecution should he attempt
to do so. See App.D pg.1-2. The Court will note that at that
point in time these were mere allegations. This was a threat
that any lawyer would take seriously. Mr. Boyle is an elderly
3

gentleman whose health is not good.
The Court did not make any inquiries into whether the govern­
ment allegations regarding Mr. Boyle's "conflict of interest"
had any basis in fact. In Cuyler v. Sullivan, the Supreme Court
held that mere possibility of conflict is not sufficient proof.
Mr. Boyle was summarily disqualified by the government and the
Court acquiesced. The Supreme Court also held that therefore,
if the trial court knows or reasonably should know that a conflict
exists, it is the duty of the trial court to investigate. The
Supreme Court held that a hearing involving the disqualified
attorney must be held. See Cuyler v. Sullivan, 446 US 335, 64
L.Ed. 353, 100 s.ct. 1708. Cabello raised this in open court.
At a Dec. 5 2012 hearing. Cabello's right to represent himself
had been unilateraly suspended by the court for the third time
and a Mr. Michael Levine had been appointed counsel, much to
Cabello's surprise. Mr. Levine upon learning of the threats
to counsel of choice Mr. Boyle proposed to the court that a
hearing be held to find out what the facts are.
Mr. Levine: Your Honor, as an officer at this point, or
perhaps as Mr. Cabello's counsel, although I'm appointed—
I am his counsel. This is a serious issue, just from what
I know and just listening to his colloquy, and that's all
I know at the moment. Clearly if Mr. Cabello—if there
is evidence that the government in someway interfered with
Mr. Cabello's right to retain his own counsel—I'm not
suggesting there was—but if there was some sort of improper
conduct with respect to interfereing with his right to
counsel, that.raises a very serious constitutional issue,
which also effects the entry of the guilty plea. But even
beyond that, it could affect the status of the indictment.
These are all materials—I have never spoken to this Mr.
Boyle. I don't know any of the underlying facts. I have
heard assertions on both sides. Clearly this is something
that needs to be seriously investigated and looked into.
That's all I want to say, Your Honor.
The Court: Well, in respect to this matter, it can be resolved
4

by having a hearing. Mr. Boyle can testify under oath.
He can do this with our electronics so he doesn't have
to travel. We will find out what the facts are that are
disputed.
Mr. Levine: I think we can definately do that. See App.D
pg. 3-4.
This hearing was never held. Throughout the hearings the court
displayed a pattern of saying one thing and then retracting
or ignoring it. The government claims that Mr. Boyle was to
travel to Portland and testify for the government. The Court
did nothing to stop AUSA's Mr. Edmonds and Ms. Faye from repeat­
edly stating this misrepresentation. This was factually incorrect
and the government and the Court in the person of the Honorable
Judge Robert E. Jones knew it. Apparently forgetting that at a
Sept. 6, 2012 hearing the parties had agreed to a stipulation.
See App.D pg.24 Line 129 #128.
The Court: "Well, instead of flying him clear out here
to say that, why don't you write out precisely what you'd
have him say."
(AUSA) Ms. Faye: "All right."
The Court: "See if counsel can stipulate to it."
Ms. Faye: "All right."
The Court: I just don't want to get into collateral issues
that he was~ charged with this and we talked about this
and that and so forth."
Ms. Faye: "That's not our intent." See App.D.pg.5.
The gist of Mr. Boyle's testimony was that he received cash
from Cabello and duly filed form 8300. Mr. Boyle had already
agreed to stipulate to that and was prepared to proceed as
Cabello's counsel. Moreover in a letter he stated that it was
absurd to think there was a conflict and did not think that
any Federal Judge would see it as a conflict, but clearly an
5

administrative matter and not anything relative to the case
charged. See App.D pg.6. The lawyer, "necessary witness" standard
is, (1) Testimony relates to an uncontested issue; which it
is, (2) The testimony relates to the nature and value of legal
services rendered in the case; which it does, (3) Disqualification
of the lawyer would work substantial hardship on the client;
which it did. Cabello was denied counsel of his choice because
Mr. Boyle followed the law and filed a form 8300.
Denial of counsel of choice is structural error, requiring
that the conviction be reversed even without showing of prejudice.
Once counsel of choice is violated the violation is complete.
See Gonzalez-Lopez, 548 US 140, 126 s.ct. 2557, 165 L.Ed 2d
409. The error is plain and structural and the Supreme Court
has held that it is not amenable to harmless error analysis.
In light of Cuyler v, Sullivan, supra, the trial court erred
in denying Cabello counsel of choice without cause. The circuit
court equally erred by putting its impramature on this 6th Ammendment violation. Right to counsel of choice is the very root
of the guarantee under the 6th Amendment. The trial courts discr­
etion must be exercised within the limitations of the 6th
Amendment.
DENIAL OF SELF-REPRESENTATION
After CAbello had been denied counsel of choice, a Mr.
Michael Smith was appointed to represent Cabello. The defendant
asked for a representation hearing 4 days prior to trial on
Sept. 13, 2012. Cabello had not seen nor spoken to Mr. Smith
in some time, as he had spent the.previous month in London,
England watching the Olympics. Upon his return Mr. Smith was
6

unprepared for trial, he had no witnesses, no experts, no exhib­
its, in short, no defense plan, other than to concede the charges.
See App.D pg.7. Cabello asked Mr. Smith to file a motion stating
that Cabello had been charged under the wrong statute and the
fact that there had been no money laundering. This was based
on case law, regarding a third party, see RE: GRIN, 112 F. 790:
(9th Cir. 1901) and Gillet, 249 F.3d 1200, (9th Cir. 2001).
This Mr. Smith refused to do. Any lawyer that would refuse a
clients reasonable request can hardly be said to be providing
effective counsel. At this point in time Cabello asked to go
pro se, but that he would need time to prepare. The Court quickly
responded, "NO, that's not going to happen. We are going ahead
with the trial as scheduled." The Supreme Court has held that
self-representation requires time to prepare. The court denied
the request, rather than continue the trial and address the
matter at leisure, the trial court set the matter for the morning
of trial. First, it can be inferred from this timing coupled
with the courts resistance to the request for continuance so
that Cabello could prepare, the trial judge prejudged the request
for continuance implicit in any change of counsel when it calen­
dered the hearing for the morning of trial. No attorney ..would
have taken the case conditioned on trying it immediately. Cabello
could not try a complex 51 count case with zero time to prepare.
During a brief recess, Mr. Smith presented Cabello with a plea
petition which was for counts 1 and 51 only! On one hand Cabello
could undertake to defend himself that same morning at the trial
of a 51 count prosecution or on the other hand Cabello could
abandon his right to self-representation and simply enter pleas
7

of guilty to what he believed were 2 counts, 1 and 51. It presentCabello who had made a timely , unequivocal, voluntary, and
intelligent request to proceed pro se, with a true Hobsen's
Choice. That Cabello did the latter does not bespeak of a free
exercise of meaningful choice. The denial of the request for
a continuance constitutefs] an abuse of discretion that amounts
to outright denial of [the] request to proceed pro se.
Circuit Judge Richard A Paez of the Ninth Circuit writing
for a unanimous panel in Farias, 618 F.3d 1099, 1052, 1053 (9th
Cir. 2011) case, wrote "A criminal defendant does not simply
have the right to defend himself, but rather has the right
to defend himself meanfully." Meanful representation requires
time to prepare Milton v. Morris, 767 v.2d 1443, 1446 (9th Cir.
1985) ([T]ime to prepare...[is] fundamental to a meaningful
right to representation. See also Powell v. Alabama, ("It is
vain to give the accused a day in court with no opportunity
to prepare for. it..." (internal quotation marks omitted); Armant
v. Marquez, 772 f.2d 552, 557-58 [618 F.3d 1054] (9th Cir. 1985)
("Holding that where a defendant had enequivocally invoked his
right to proceed pro se the day before the trial, the district
courts denial of his request for a continuance constituted an
abuse of discretion and ("effectively rendered his right to
self-representation meaningless),).
PLEA PETITION
A forensic examination of the plea is enlightening as in
the light of day, the Court can see how this jury built production
was constructed and appreciate in full the Rube Goldberg nature
of it. See App.£ pg. 1-9. On page 2 of the plea, the first inter8

lineations appear. An unknown hand crudely interlineated 6 add­
itional counts, 3, 4, 9, 11, 12, and 15. Count 15 shows an arrow
pointed to false income tax. Another line points to false state­
ments on credit cards. Then count 3 is sectioned off with, is
possession of stolen funds. On page 4 of the plea; on line 8,
the only mention of waiver of appeal is that Cabello will not
be able to appeal from judges denial of any pretrial motions
he may have filed concerning matters or issues not related to
the courts jurisdiction. This is in nowise a waiver of appeal.
Continuing down page 4 on line 10 are more interlineations.
Scrawled in: $1,000,000 credit card charges[;] credit cards
30 yr false tax 3yr felony and $250,000 fine. On that same line
10, I also know there is a mandatory minimum of -0- years im­
prisonment . Cabello was lead to believe he could expect some
measure of leniency. This was highly misleading as Cabello was
sentenced at level 37, which calls for 210-262 months. This
is a violation of rule 11(b)(1). Courts have held that failure
to inform defendant of direct consequences is not harmless error.
The courts failure to inform Cabello that the mandatory minimum
of 0 years imprisonment had no meaning was a substantial violation
of Cabello's rights. See U.S. v, Goodall, 236 F.3d (DC 2001),
U.S. v. Wately, 987 F.2d 841; 300 U.S. (DC 1993). On page 5
of the plea on line 15, the plea states that Cabello will be
given a supervised release term of 2-3 years. Another misleading
provision as Cabello was given 5 years of supervised release.
See App.A pg.4. On line 10 of the printed portion shows a fine
of $250,000 on Count 1 and $500,000 on Count 51. Again misleading
as Cabello was fined $3,000,000 over that. Whoever tampered
9

with the plea did so in haste. Quickly forging counts 3, 4,
9, 11, 12 and 15 on line 3. See App.fi pg.2. He or she in their
haste neglected to alter line 23 which states unambiguously
that the plea is for 1 and 51 only! See App.fi pg. 6-7. These
interlineations are not initialed by the signatories of the plea.
Attorney Mr. Smith did not initial the interlineations, since this
occurred without Cabello's consent, he did not initial the new
terms, and the Court did not initial the new terms or ever attempt
to find out who altered the plea. The government WAS NOT sig­
natory to the plea. It was the Courts plea.
While it is not known who tampered with the plea it could
only have been someone with access to the document and an inter­
est in doing so. Who had access? Attorney Mr. Smith, AUSA's
Mr. Edmonds and Ms. Faye, as well as the Court in the person
of the Honorable Judge Robert E. Jones.
At a Nov. 15, 2012 hearing Cabello complained about these
interlineations that the plea was defective, illegal and void.
The Defendant: Your Honor, also on pg.2 of this plea agree­
ment its been penciled in. You won't find my initials
next to any of this, as you would on any contract.
The Court: Anything further sir? (See App.D pg.8)
At this hearing all the persons who had access to the plea were
present. Neither Mr. Smith, the government, or the court endeav­
ored to contradict Cabello or otherwise gainsay that the plea
had been tampered with and altered. Moreover the court made
zero attempt then or ever to find out who had taken it upon
themselves to alter the pleas integrity, especially since it
was being used in an official Federal proceeding. Interestingly
none of the other officers of the-court stepped up to say that
10

they were the author of the interlineations. Cabello was not
permitted to enforce the plea he signed which was for count
1 and 51 only! In clear contravention of the controlling and
unambiguous holding of the Supreme Court in Santobello, 404
US 257, 30 L.Ed 2d 427, 92 s.ct. 495, by permitting the illegal
plea to stand this bait and switch "trick" is something that
the Supreme Court has held or recognized that where a defendant
is deceived, mislead, or tricked into pleading guilty, such
a plea is invalid. See Hawk v. Olsen, (1945) 326 US 271, 90
L.Ed 61, 66 s.ct 116. Smith v. O'Grady, (1941) 312 US 329, 85
L.Ed 859, 61 s.ct 572; Parker v. North Carolina, (1971) 387
US 790, 25 L.Ed 2d 785, 90 S.ct 1458.
The government of course knew that this crude mish-mash
of interlineations, misleading provisions, and chaos was fatally
flawed.
So after the Sept. 17, 2012 plea hearing, the government
hastened to calendar a hearing on Sept. 27, a scant 10 days later.
The governments purpose was to "amend" the plea, notwithstanding
the fact that there is no Rule 11 procedure to "amend" a plea.
The government was in effect asking the court to preside over
a procedure that does not exist. The Court complied with the
request. AUSA Mr. Edmonds in a moment of candor told the court
some inconvenient truths:(l) "It's undoubted in looking at the
petition that Mr. Smith completed, that it has errors in it."
(2) "Secondly,

it doesn't have any factual basis included in

it for the false statement counts or the tax count." (3) "It
also didn't include anything about the waiver of appeal." See
App.D pg.9—10. It is not a coincedence that the false state11

ment counts and the tax count are the very counts that are forged
onto the plea. The government concedes that the plea is riddled
with errors and inadequacies. The government agrees with Cabello
that Mr. Smith is ineffective and incompetant in equal measure.
The government then proceeded to introduce amendments which
the Court accepted and read out loud. Cabello refused to sign
them and objected to them. See App.D pg.ll line 154. Unsigned
as they were by Cabello or Mr. Smith they were not filed and
are NOT part of the record, i.e. they do-not legally exist.
Undaunted, the court declared that the were "incorporated" into
the original plea. There is no provision in the Federal Rules
of Criminal Procedure for the district to amend or modify a
plea. See United States v. Goodall, 236 F.3d (DC 2001). This
is a violation of Rule 11(a) signings pleadings, motions and
representations to the court. The Court must strike unsigned
paper unless the omission is promptly corrected after being
called to the attorney's or party's attention, and 11(b)(1)
it is not being presented for any improper purpose. At the very
least it is improper to use an unsigned document that does not
legally exist to support or buttress an illegal one that does.
This freed the government to misrepresent to the 9th Circuit
on direct appeal that the Sept. 27, 2012 hearing "cured" the
flawed original plea. See App.D pg.12. The government misrep­
resents that Cabello acknowledged that the court would be "incor­
porating" the amendments despite Cabello's objection to the
amendments. See App.D pg.ll, line 154. Criminal Law §59, 112—
Federal Rules-guilty plea-record 6. Under rule 11 of the F.R.C.P.
governing pleas in Federal Courts, the sentencing judge must
12

develop, on the record, the factual basis for a guilty plea,
as, for example, by having the accused describe the conduct
that gave rise to the charge. This was not done for the 6 forged
counts. The government admitted it in open court and the Court
knew it as well. See App.D pg.9-10. In this instance and through­
out the hearings the Honorable Judge Robert E. Jones disregarded .
Rule 11 procedures and took great care that the Courts plea
petition would stand. The District Courts order did not have
a legal basis and was in violation of 18 U.S.C. 1512(c)(1).
This statute explicitly proscribes that under 1512(C)(1), whoever
corruptly—alters, destroys, mutilates, or conceals a record,
document, or other object, or attempts to do so, with the intent
to impair the objects integrity or availability for use in an
official proceeding is in violation of Federal Law. The Court
never asked any officers of the court if they had added the
extra counts, rather Judge Jones asked Cabello.
The Court: Why don't you—just a minute. In respect to
adding the counts other than 1 and—51 or 2?
AUSA Mr. Edmonds: 51 , Your Honor.
The Court: There were additional counts added. When was
that done?
The Defendant: I wish I knew your Honor. I don't know.
I was under the impression when I—one of the reasons I
was reasonably content with Mr. Smith that day is because
I thought I was pleading to counts 1 and 51. See App.D
pg•/4
The question was a bit disingenuous in that Cabello had
been attempting all along to discover who had tampered with
the plea. It was after all the Court who signed the plea. How­
ever no other inquiries were made. Again at this hearing Cabello
is never gainsaid, opposed or contradicted, that the plea had
13

been surreptitiously falsified. Under 18 U.S.C. 1519, it qualifies
as falsified if it misrepresents what the parties agreed to.
Contracts §54 — Construction 12. The purpose of the common-law
rule that a court should construe ambiguous contract language
against the interest of the party that drafted such language
is to protect the party who did not choose such language from
an unintended or unfair result. This is a material misrepresen­
tation. In contract law a misrepresentation is material only
if it would induce a reasonable person to manifest his assent.
Since Cabello's attorney had no defense and Cabello had been
denied time to prepare to self-represent, he had a strong incen­
tive to manifest his assent to a plea petition that was removing
49 of the 51 counts.
Cabello filed numerous motions to withdraw his plea on
the grounds that he had "fair and just reasons." See OrtegaAscanio, 376 F.3d 878, 833 (9th Cir. 2008). At a Feb. 19, 2013
hearing the Court in a finding agreed with the defendant and
conceded on pg.18 of the finding, "The Court regrets that a better
record was not initially made and takes full responsibility
for inadequacies apparent in the original plea colloquy." The
ori8inal plea colloquy was the only plea colloquy. The nonrecord
"amendments" were merely read aloud and Cabello did not ack­
nowledge them, but on the contrary objected to them. See App.D
pg.15 and App.D pg.ll line 154.
The Court: "The purpose is for you to tell me what is the
basis for your—not the law, but what is the factual basis
as to what happened at the time of your plea that you feel
was improper."
The Defendant: "Well, I mean inadequate—inadequate plea
colloquies."
14

The Court: ’’In what respect?"
The Defendant: "Well, there was no relationship between
the plea agreement that I had in my head that day. And .
from this draft disposition that you sent me your Honor,
on page 18 lines 10 and 11, the Court regrets that a better
record was not initially made and takes full responsibility
for inadequacies apparent in the original plea colloquy."
Your Honor, the government has to take responsibility for
inadequacies or ambiguitites in the plea colloquies."
The Court: "Well the plea colloquy was prepared by you
and Mr. Smith."
The Defendant: "I didn't —I had nothing to do with it,
the plea colloquy, Your Honor."
The Court: "Well, you read your confession from it."
The Defenant: "Well

I—as your Honor—"

The Court: "Don't tell me you had nothing to do with it.
I'm talking about, when I say colloquy, we're talking about
me discussing giving you your rights and so forth. We were
—We did not in that colloquy address certain aspects which
were supplemented later, which you already know. I'm asking
you as to what you say you didn't know about or was not
addressed."
Since this was the courts plea and the court had signed
it, the court had a vested interest in making it stand. The
supplement the court refers to are the non-record and non-existant
amendments. The courts strained conceit needs no further construc­
tion. There are _N0 jurisdictions in which the defendant prepares
the plea colloquy. See App.D pg.17-18.
The court was being accurate when the court stated that
the original plea colloquy was inadequate, it was. However,
the court had taken an adversarial stance a-g-ainst Cabello and
had taken the lead in arguing for the plea, thus removing the
court as a neutral arbiter between the government and the defend­
ant. The court apparently realizing that it had given Cabello
confirmation that he had "fair and just reasons" as well as

15

a legal right to withdraw his plea now hastened to "cure" the
confirmation. The hearing was Feb. 19, 2013, by the time the
finding was filed the concession had been expunged. See App.D
pg.15-16. Because the court had denied attempts to withdraw
the plea and had argued vigorously for the plea and because
it was the courts plea, the court could not or would not be
a neutral arbiter. This alteration of the finding is instructive.
There cannot be an atom of reservation or doubt that there is
a nexus between altering yet another court document and Judge
Jones' steadfast refusal to entertain Cabello's motions to with-Jr&vJ
his plea. Seemingly forgetting that it is in the transcripts.
See App.D pg. 17-18. Judicial action taken, without any arguable
legal basis—and without giving notice and an opportunity to
be heard to the party adversly affected is far worse than simple
error or abuse of discretion; is is an abuse of judicial power
that is "prejudicial" to the effective and expeditious admini­
stration of the business of the courts." Cabello did not discover
this expungement for many months. The government conceded that
the colloquy was inadequate, the court conceded that it was
inadequate. It was incontrovertibly true that the plea colloquy
was inadequate and one of the primary reasons for withdrawing
a plea. See Ortega-Ascanio, supra. The court had no legal basis
to alter the finding. All Cabello's attempts to recuse the judge
were denied.
AUSA Mr. Edmonds took the expungement to mean that he could
now misrepresent to the 9th Circuit on direct appeal that "At
no point did the defendant argue that there was a defect in
the district courts Rule 11 colloquy." Mr. Edmonds was present
16

at the Feb. 19, 2013 hearing and knows that this is factually
incorrect. See App.D pg.19. Mr. Edmonds also apparently forgot
that Cabello's complaint to the court about the inadequate plea
colloquy was in the transcripts. See App.D pg.17-18. The back
story to the

very occurance of the Sept. 27, 2012 hearing undereu

cuts any notion that this plea is valid. It was the government
that calendared that hearing, for the express purpose of shoring
up the factual and legal record made at the defective plea hearing.
The prosecution itself raised many of the shortcomings in the
plea record. So we can dispense with the fiction that the 9/27/12
hearing "cured" the original plea. It cured nothing. How could
the "amendments" cure anything, they don't exist. If the government
were ordered to respond to this motion, it is very doubtful
they will rely on the amendments. The government may resort
to some in limine violations but the Petitioner will bring this
very quickly to this courts attention.
Cabbello, however still wanted to discover who had tampered
with the plea. Attorney Mr. Smith was the "Author" of the dis­
ordered and error plagued plea. This plea caused a jumble in
the court. The government hastened to amend what it could not
amend. Any attorney who presents a plea such as this, that caused
disorder and confusion in th court is by definition ineffective.
This impelled the government and the court to pull out all the
stops to defend the defective, illegal, and fraudulent plea.
The disorder is taken to a new level as Mr. Smith who had been
appointed Cabello's advocate,:suddenly decamped for Alaska.
Mr. Smith apparently filed no motion but was "excused" by Judge
Jones. Cabello's pro se status was suspended for the third time
17

and Mr. Levin was appointed counsel to Cabello's surprise. At
the Nov. 15 hearing, Mr. Smith indicated that he would be at
the Dec. 5 hearing. See App.D pg.20. In a scant 20days Mr. Smith
abandons Oregon and hightailed out of town. This departure was
hasty. Mr. Smith had practiced in Oregon and Alaska for years,
but then suddenly he folds his tent and heads for Alaska. Mr.
Smith who had indicated to Cabello that he was fully booked,
suddenly abandons all the cases he had pending and skedaddles
out to the last frontier. Thereafter he was "unavailable". Cabello's
attempts to call Mr. Smith in for a hearing were futile. The
court went through the motions of pretending there would be
such a hearing. Mr. Smith was the fulcrum which much heavy lift­
ing could have been done. As the "Author" of the plea he either
made the interlineations or knew who did. Cabello never tired
of trying to find out who forged the plea and at that same Feb.
19, 2013 hearing stated to the court:
The Defendant: "I do not see how—I hesitate to say this,
but a forged document that is committing fraud upon the
court can be allowed to stand. I don t understand that
your Honor. And I have other case law here. The Ninth Circuit
has held over and over again that the fair and just standard
must be met—"
The Court: "You sent me--"
The Defendant: "And I—"
The Court: "You sent me some 80 pages of your position
and cases. Which I've read. Anything further? See App.D
pg.21
- --------Again, zero attempt by the court to discover who altered
and tampered with a document that was being used in an official
Federal Court Proceeding. The court will note that Cabello is
n°t contradicted by the government or the court. There can be
18

only one reason why, and that is because the plea had been corruptly tampered with in direct violation of U.S.C. 18 1512(c)(1)
and everyone in the court knew it. All of Cabello's attempts
to find out who made the interlineations were futile. Whoever
did it, not wanting to leave fingerprints did not initial the
interlineations and never stated in open court that he or she
made the interlineations. The court and the government not wanting
to know the answer, never posed the question. The Supreme Court
and the Ninth Circuit have construed pleas as a contract and
are judged under the General Principles of contract law. A contract
term is ambiguous only if "multiple reasonable interpretations
exist." See IBEW-NECA Pension Tr.Fund v. Flores, 519 F.3d 1045,
1047 (9th Cir. 2008). Under these principles the contract (plea
petition) is a legal document and must be applied in accordance
with [their] terms. In this plea petition we not only have ambi­
guity but a flat out, 180 degree contradiction. Line 3 of the
plea shows in the printed portion what the Defendant agreed
to, but then additional counts were forged. See App.B pg.1-2.
Line 23 shows what the Defendant agreed to, that is count 1
and 51. See App.B pg.6-7. These peculiar and extraordinary facts
are indisputably true. One simply could not invent these events.
Cabello says that line 23 is what he agreed to. The government
and the court cleave to the forgeries on Line 3. Having decided
early on that they would stick-fast to the forged plea, the
government did so through direct appeal and the 2255 and continue
to adhere to it to this day. The Court has as well. Judge Jones
has been stadfast in his defense of the plea. The Supreme Court
has held that Pleas are a legal document that must be construed
19

and in accordance with [their] terms. See Texas v. New Mexico,
482, U.S. 124, 128, 107 s.ct 2279, 96 L.Ed.2d 105 (1987). The
plea once accepted cannot be altered without consent of the
parties, nor may the court modify a plea on its own simply because
of an uninduced mistake, unilaterally, neither side should be
able, anymore than would private contracting parties, to renege
or seek modification because of a change of mind. Both constitu­
tional and supervisory concerns require holding the government
and this case, the court as well, to a greater degree of responsi­
bility that the defendant. The government has made every effort
to enforce a defective plea that it is not signatory to. The
court has ruled that its plea (the courts) will stand. Rule
11(c)(1) has a stern command. The court must not participate
in any plea agreement (petition). The court did more than merely
participate, it was.the courts plea. And finally, allowing a
district judge to engage in appellate-waiver negotiations and
other provisions of the plea compromises the judge’s decision
making because it makes it difficult for a judge to objectively
asses the voluntariness of the plea entered by the defendant.
And if problems arose with the plea, the judge may view unfav­
orably the defendants rejection of the plea. See Bruce, 976
F.2d at 557-58. The court argued for waiver of appeal throughout
the hearings. This despite the fact that the: prosecution itself
conceded that there was no appeal waiver. See App.D pg.10.
The court is a neutral arbiter between the prosecution
and the defendant. In this case the court took the lead in arguing
for the defective plea.
The government negotiates its plea agreements through the
20

agency of specific U.S. Attorney’s as necessarily it must, the
agreements reached are those of the government. See U.S. v.
Harvey, 791 F.2d (4th Cir. 1986); U.S. v. Goodall, 236 F.3d.
700 (DC 2001)..Ambiguities may not be allowed to relieve the
government of its primary responsibility of insuring precisions
in the plea. No argument can be made that the chaotic plea has
any resemblance to precision. And yet the court did, as the
government was not signatory to the plea, it fell to the court
who was signatory to defend it. However the government is responsi—
ble for the illegal and defective plea. The government itself
conceded that the plea was error ridden and inadequate. See
App.D pg.10. Going by the specific language of the plea there
are no provisions for non—signatories. The only course of action
available for the district court upon rejecting the plea, which
it clearly did entertaining the governments amendments, is to
adivse the defendant personally and give the defendant an oppor­
tunity to withdraw tihie guilty plea. Fed.R.Crim.P. 11(c)(5)(C).
This was not done. In a complete usurpation of judicial power,
the court is inventing its own rules. A 60(b) motion is a drastic
remedy and is granted in extraordinary circumstances.
Exercise of judicial power in the absence of any arguably
legitimate basis is just such a circumstance. The orderly proceduers of rule 11 are not designed merely to insure fairness
to the litigants and the correct application of the law, though
they surely serve those purposes as well. More fundamentamentally,
they lend legitamacy to the judicial process by ensuring that
judicial action is

and is seen to be—based on law, not the

judges caprice. The actions taken by the court to defend the

21

forged plea petition are far worse than simple error or abuse
of discretion; it’s an abuse of judicial power. This is a serious
legal error and an egregious one in that the court denied Cabello
fundamental prgcedyral . rights . See 28 U.S.C..§351(a); Shaman:,,,
Lubet, and Alfini. §2.02 at 37. Can a judge abuse judicial power,
disregard fundamental rights, intentionally disregard rules
and established procedures? Cabello avers that this is an extra­
ordinary circumstance.
Judge Robert E. Jones having denied Cabello his counsel
of choice, denied his right to self-represent by not granting
time to prepare, completes the trilogy by stating that the court
would not appoint an attorney for any appeal. Cabello filed
a motion in the Ninth Circuit for an appellate attorney. The
circuit court granted the motion. See App.D pg.22 line 5. The
Circuit Court having ordered the District Court to appoint an
appellate attorney forced the judge to do what he did not want
to do. The court appointed a Mr. Robert Weppner.
Mr Weppner's bedside manner was strange, he would not accept
phone calls from his client. Cabello offered to pay for the
calls but Mr. Weppner's practice was to "discourage" phone calls.
He would not brook any input into arguments to be made. Cabello
asked Mr. Weppner not to waive the arguments he made in the
district court. Mr. Weppner takes great care to avoid all of
Cabello's arguments and argues narrowly on Faretta. Not only
will Mr. Weppner not take phone calls but was also difficult
to communicate with, even by e-mail.
In a series of handwritten letters, I ask Mr. Weppner to
not waive my arguemtns and to send me a draft of his brief before
22

he files it. A reasonable request. After not responding for
3 weeks, Cabello sent another e-mail asking to please respond
as he has not had any contact with Mr. Weppner in months. Mr.
Weppner responds finally to say that he thinks that "it is unlikely
in the extreme" tha the will raise my arguments. And that it
is unlikely he will be able to send a draft of the plea.
Lawyers advise, but clients decide. This ignoring his clients
wishes is not only deplorable but textbook ineffectiveness.
His stumbling performance at the direct appeal 10 minute oral
argument is even more deplorable. The court can views his "per­
formance" on YouTube. Case# 13-30080 3/2/15 location: Portland,
Oregon. Messrs. Smith and Weppner both clear the Strickland
bar. See Strickland v. Washington, 466 US 668, 689, 80 L.ed
674 (1984). In the United States v. Cronic, 466, US 648, 80
L.ed 2d 657, 104, s.ct. 2039 (1984). The Supreme Court noted
that there are circumstances that are so likely to prejudice
the accused that it is not worth litigating their effect in
a particular case. Cabello avers that this case is just such
a case and clears the Cronic bar. John Adams said famously,
"facts are stubborn things, and whatever our wishes, our incli­
nations, or the dictates of our passions they cannot ALTER the
state of facts and evidence." The peculiar facts of this case
is that such "Legerdemain" is conducted right out in the open
with no effort to conceal it. The power differentials between
a pro se defendant and a Federal Judge is vast. All of Cabello's
objections to the forged plea, denial of counsel of choice,
and denial of right to self-represent, fell on deaf ears. Cabello’s protest that his rights were being flouted were disregarded
23

or ignored. Circuit Court Judges M.Smith and Lee erred in over­
looking these plain and clear constitutional violations. See
A p p .: A p g . 3.
GOVERNMENTS RESPONSE TO 60(b) MOTION
Honorable Judge Michael W. Mosman to whom the case has
been reassigned after Cabello filed motion to recuse Honorable
Judge Robert E. Jones,ordered the government to respond to defend­
ant's 60(b) motion. See App.D. pg.23 line 326. The court ordered
the government to reply by October 15, 2019. The petition was
denied on October 18, 2019, thereby not permitting the defendant
to reply to government response. See App.D pg.23 Line 330. That
is rather irregular and does not seem quite proper. Cabello
received the governments response in the mail on Oct. 21, 2019,
by which time the 60(b) petition had been denied. ''See App. A
pg. 1-2.
In the government response Ms. ..Zusman misses the mark on
Buck v. Davis supra by a wide margin: , she ignores the fact
that the Supreme Court had changed the law that provided an
excuse for his procedural default, permitting him to litigate
his claim on the merits.
The court will note that the government attorney makes
no mention of 18 §1512(c)(l) save sparse mention of some inter­
lineations and that's Cabello's "beef". There is no attempt
to deny that a court document had been illegally altered. Neither
the government or the court have ever denied that the plea had
been tampered with. Ms. Zusman is also incorrect to say that
I have fully vetted the accuracy of my guilty plea. All of my
arguments were procedurally defaulted, courtesy of Appellate
24

Attorney Mr. Wepner, as Ms. Zusman noted in her response. See
App.C. pg.2. This case has long since been ready for a wide­
angled lense put to it. The interlineations are more than Cabello's
"beef" and graver than violation of a mere statute. It undermines
the entire structure of the judicial system if the government
or the court is allowed to alter documents to fit their narrative
and "poisons the public confidence in the judicial process."
If a response is required and the allegations are not denied
they are admitted as true. See Rule 8(b)(6). A response was
required. See App.D pg.23 line,326. The government attorney
does not deny the allegations because she knows that they are
not only true, but demonstrably true.
The Government admits that the amendments that "cured"
the forged plea were phantasms, that Mr. Edmonds made crucial
and material misrepresentations, and that there were wholesale
violations of Rule 11 procedures. The government in not denying
the allegation, tacitly agrees that the plea had been tampered
with, altered, and forged, admitting the violation of 18 USC
§1512(c)(l). Admits nullification of important Rule 11 procedures.
See Fed.R.P. 1. Fed.R.Civ.P. 8 governs the pleading standards
in all civil actions and proceedings in United States district
courts. (Kennedy, J joined by Roberts, ch.J. and Scalia, Thomas,
and Alito, JJ). See Rule 8(b)(6).
The phone call that the government refers to is an in limine
violation. The fact that it is taken out of context and twisted
to mean something other than what Cabello meant is beside the
point. It is an IN LIMINE VIOLATION. The fact that it was an
in,limine violation, was lost on AUSA Mr. Edmonds who introduced
25

it in the district court and astonishingly that fact was also
lost on t-h'e court that favored the government by allowing it.
Thereby not only allowing the in limine violation but violating
his own court order. See App.D.pg.24 Line 129 #119. The fact
was also lost on the blithe appellate attorney Mr. Weppner and
now Ms. Zusman closes the loop by also referencing the in limine
violation. The court had ruled definitively that the motion
in limine to bar jailhouse calls was moot; the government does
not intend to present such evidence at trial, thus mooting the
need to suppress with respect to jailhouse calls. See also App.D.
pg.25. Suffiency in Federal Court of motion in limine to preserve
for appeal absent contemporary objection at trial. 76 ALR Fed
619. Evid. Rule 103 - Once the court rules definitively on the
record either before or at trial - a party need not renew or
offer of proof to preserve a claim of error for appeal. It is
important for the court to note that this occurred on Sept. 6,
2012 - eleven days before the trial date of Sept. 17.

Circuit

Court Judges M.Smith and Lee erred in overlooking these due
process and fifth amendment .violations, compounded by sanctioning
these vast departures from the accepted and usual course of
judicial proceedings. See Supreme Court Rule 10(a)
FRAUD ON THE COURT
Rule 60(d) authorizes the court to set aside a judgement
for fraud on the court. In determining whether fraud constitutes
fraud on the court, the relevant inquiry is not whether fraudulent
conduct prejudiced the opposing part, but whether it harmed
the integrity of the judicial process.
The plea petition, standing alone is proof of fraud on
26

the court, only more so because it is fraud in the presence
of the court. The government covered these violatoins in a cloak
of legal procedures. After the Sept. 27 2012 hearing where the
"Potemkin Amendments" were taken out for a trial run and the
illusion of having "cured" the fraudulent plea was promulgated,
all subsequent hearings were held to justify that same plea.
The defendants attempts to have panel attorney Mr. Smith testify
as to who forged the plea were ignored. See App.D pg.26. These
hearings then made it possible for Cabello's case on direct
appeal to narrowly focus on Faretta, as Appellate attorney Mr.
Weppner disregarded Cabello's district court argumehts. Another
example of just how chaotic and jumbled these proceedings were
was the amendments Mr. Smith insisted I sign. See App.D. pg.27
On App.D pg. 27, the court can clearly see where the government
has signed but the defendant and Mr. Smith have not. The court
will note that the plea offer expires on Dec. 16, 2011, this
at a Sept. 27 2012 hearing. The plea's shelf life had expired
some nine months earlier. The affirmative act[s] of continuing
to defend the plainly illegal petition were in furtherance of
the continuing fraud on the court. This fraud on the court has
not ceased to operate. Not only fraud on the court, this is
several orders of magnitude beyond fraud in that it involves
violation of statutory law in the "presence" of the court. This
kind of fraud is far more damaging to the courts good name and
the integrity of the court and its ability to function is directly
impinged. To call these errors would be incorrect. Everyone
present knew that the plea had been forged. The action was a
'■ '

'27

f

deliberate and wilfull disregarding of the rule of law. This
setting aside of legal principles in order to promulgate the
illegal plea and complete what the government viewed as legal
necessities, i.e.,

to win. This can only be called irrational

perserverance. The solution to all of this chaos was achingly
simple;

follow the rule of law and have the social intelligence

to keep yrarr word.
At the Sept. 27, 2012 hearing, Mr. Edmonds was aware that
the court merely reading the "amendments" was not even close
to following Rule 11 procedures. That the whole proceeding to
implement untethered procedures not based on established rules
or law was inadequate. AUSA Mr. Edmonds persisted;
AUSA: Mr. Edmonds: Well, we want acknowledgement from the
defendant that he has entered pleas of guilty to the charges
that are in this amended plea petition. Its clear to the
government that he's going to be contesting these matters.
The Court: Well, Counsel, you're—all you're doing is mud-..
dling up the record at this point...
See App.D pg.28. Although the government practically begs
>

the court to follow established rule 11 procedures, to follow
the rule of law,

the courts answer is a resounding no. The court

considered following Rule 11 procedures as "muddling up the
record". The court's outlook was narrow and restricted in scope,
i.e.,

the promulgation of the illegal plea. A district court

abuses its discretion if it does not apply the correct law,
or if it rests its decision on a clearly erroneous finding of
material fact. By any metric an extraordinary circumstance.
Due Process Clause of the Fifth Amendment is repeatedly violated
throughout the entire process. Circuit Court judges M. Smith
and Lee erred in overlooking these repeated Fifth Amendment
28

violations and peculiar and extraordinary circumstances. See App.A pg.3
STANDARD OF REVIEW
Federal Rule 60(b) authorizes courts to relieve a party
to a civil action. The two grounds that are relevant here are:
60(b)(4) the judgement is void; 60(b)(6) any other reason justi­
fying relief. It does not take a microscope to see that the
plea petition (contract) is void. It is visible to the naked
eye. To present Cabello with a petition that has been altered
beyond recognition as a "fait accompli" is a gross violation
of Cabello's due process rights under the fifth amendment. The
repeated violations of all rules and procedures fit 60(b)(6)
as a reason[s] justifying relief*:

The violation of 18§USC 1512

(c)(1) is plain and clear, moreover never denied. Because this
action occurred-during a criminal trial 18§1512(j) is implicated.
Rule 60(d)(l)(3) this rule does not limit a courts power to;
60(d)(1) — entertain an independent action to relieve a party
from judgement, order, or proceeding; 60(d)(3) - set aside judge­
ment for fraud on the court.
Further, in dfefermining jurisdiction, the Supreme Court
has been very clear on this matter. In determining whether extra­
ordinary circumstances exist or are present a court may consider
a wide range of factors. These may include in an appropriate
case, where the risk of injustice is present to the parties
and the risk of undermining the publics confidence in the judicial
process. (Roberts C.J. joined by Kennedy, Ginsburg, Breyer,
Sotomayor, and Kagan JJ). LvEd. Digest §289, "The whole purpose of Fed.
R.Civ.P 60(b) is to make an exception to finality;" (Roberts C.J. joined by Ken­
nedy, Ginsburg, Breyer, Sotomayor, and Kagan,.JJ) L.Ed Digest §289.
29

REASONS FOR GRANTING
1) First and foremost the plea petition itself. We can
stipulate that in most Federal Court proceedings, court documents
are not forged, altered, riddled with errors, misrepresentations,
and misleading terms. Just on the surface even a cursory exami­
nation of this forged document exposes the inadequate, defective,
and illegal nature of it. This is taken to a new dimension by
the government and the courts extraordinary exertions to prom­
ulgate this illegal plea that is in plain and clear violation
of Federal Law. The defendant is 72 years old and would be fool­
hardy to invite a charge of perjury by inventing these events.
The court will note that at no time throughout the process does
the government deny that the plea was altered and does not deny
it even when ordered to respond to Cabello's 60(b) motion. See
App.C. One would think that a defendant making such a serious
allegation(s) would trigger a strenuous reaction by the government.
That;;never happens. Any defendant that altered court documents
in that manner, would soon find himself holding the short end
of the stick.
Appellate courts review interpretations of plea agreements
de novo and in accordance with principles of contract law. But
plea agreements are unique contracts and courts temper the app­
lication of ordinary contracts with special due process con­
cerns for fairness and the adequacy of procedural safeguards.
Accordingly, courts construe plea agreements strictly against
the government and do not hesitate to scrutinize the governments
conduct to ensure that it comports with the highest standards
of fairness. This document in nowise clears that bar. While
30

the defendant is not a lawyer, what little law he knows he learned
by briars and thorns in the prison law library, he cannot see
that there is another side to this issue. See App.B.i,
During oral argument in Dec. 2019 in a case involving Insur­
ance Companies cheated by congress renegging on a promise of
$12 billion. Justice Sotomayor wrote the 8-1 opinion on the
basis of " a principle as old as the nation itself";

the government

should honor its obligations. That is, have the social intell­
igence to keep its word. Chief Justice Roberts agreed saying
insurers "would not have participated in the risk corridor pro­
gram but for the governments promise to pay." Along the same
lines the defendant would not have signed the plea, but for
the fact that he thought it was for 2 counts with 49 counts
dismissed. AH of the officers of the court knew this,
and it
is easily proved by the fact that none of them ever deny it
or step up and say that they were the one that altered the plea.
And if the court rejects the plea, which it clearly did by permitting a procedure,
plea,

that does not exist to amend the illegal

the court must follow Rule 11(c)(5)(A)(B)(C). This was

not done. The rule 11 violations were flagrant and extensive.
The court must address the defendant personally. See McCarthy
v. United States. 349 US 459, 22L.Ed.2d 418,
89 S.ct. 1166(1969).
The court concluded that "prejudice inheres in a failure to
comply with Rule 11." Rule 11 procedures must be followed,
any
other approach deprives the defendant of Rule 11 procedural
safeguards, and is a violation.of his substantial rights and
eviscerates his due process rights. Once is happenstance,

twice

is coincedence, repeated violations iS deliberate and wilfull.
31

This is not harmless error.
2) Prosecutorial misconduct. Prosecutorial misconduct is a
hidden problem. The system does not have a self-correct mech­
anism. It has to be discovered. This does not happen often as
97% of Federal prosecutions end in guilty pleas. In the instant
case, this Honorable Court does not have to wander very far
off into the weeds to discover it. The evidence is in plain
sight. The record clearly reflects instance after instance of
misconduct and the documentation in this 60(b) motion is overwhelming. The extraordinary lengths that AUSA Mr. Edmonds goes
to promulgate a plea that he himself stated in open court was
inadequate and riddled with errors. See App.D pg. 9-10. It takes
a lawyer of rare perspicacity and breadth to present a document
that does not exist (amendments) to buttress an illegal document
that does (plea petition). He presented this in the district
court and since it was sanctioned there, he felt free to present
these non-existant and non-record amendments to the circuit
court and claimed that they "cured"(sic) the . .defective and
illegal plea. See App.D pg.12. The fact that this was a blatant
falsehood was of no moment to Mr. Edmond, nor the fact that
this was also a direct violation of Circuit Rule 10-2 defining
the scope of the "record on appeal." The circuit court relied
on these falsehoods as truth. Mr. Edmonds as an experienced
prosecutor knows that Appellate Courts take a dim view of being
mislead. However Mr. Edmond having freely violated 18j§1512(c)(1)
in the distric court now proceeds to mislead the circuit court
in violation of 18 USC §1515(a)(3)(A)(B)(C)(E). The statute
defines misleading as:
32

.

(A) Knowingly making a false statement.
(B) Intentionally omitting information from a statement thereby
causing a portion of such a statement to be misleading, or inten­
tionally concealing a material fact, and thereby creating a
false impression by such a statement.
(C) With intent to mislead, knowingly submitting or inviting
reliance on a writing or recording that is false, forged, altered
or otherwise lacking in authenticity.
(E) Knowingly using a trick, scheme, or device with intent to
mislead .
In for a penny, in for a pound, having violated federal
law in the district court, Mr. Edmonds must needs play it through,
and he does. Attorneys, especially government attorneys hvae
a duty to the courts in which they practice. They have to serve
truth and the ends of justice. In these times they say that
we are living in a post-truth world. However there are still
cries from the wilderness. In the Roger Stone case, Judge Amy
Berman Jackson states: "The truth still exists, the truth still
matters." In the Sen. Stevens of Alaska case, the truth about
prosecutorial misconduct was not discovered until it was too
late for Senator Stevens. If prosecutors can do that to a sit­
ting United States Senator, it is not too difficult to imagine
what they can do to those of us on the lower frequencies. Mr.
Edmonds caused substantial prejudice to the defendant and was
flagrant in his disregard for the limits of appropriate pro­
fessional conduct. His lack of professional responsibility in
both the district court and the circuit court is appalling.
Courts have authority to police a prosecutor's ethical mis33

conduct, and can dismiss actions where government attorneys
have wilfully deceived the court and engaged in conduct utterly in­
consistent with the orderly administration.’iof justice. A defend­
ant has a due process right to enforce the plea he signed. A
prosecutor shall not make a false statement of fact or law or
fail to correct a false statement or material fact, made to
the tribunal. Lawyers have a duty to the courts before which
they practice. See Pumphrey v. K.W. Thompson Tool Company, 62
F.3d 1128, 1130 (9th Cir. 1995). Cabello's objections, pleas,
motions, and complaints had no agency. None at all. The defendant
was just never heard.
Justice Ginsburg wrote in a 2008 case, in our system "courts
follow the'principle of party presentation, i.e •

t

the parties

form the issues for decision and the courts generally serve
as nuetral arbiters of matters the parties present." In U.S.
v. Sineng-Smith Justice Ginsburg wrote, "The Ninth Circuit Appeals
panel departed so drastically from the principle of party presen­
tation as to constitute an

abuse of discretion." In the instant

case, the only party making a presentation was the government.
Cabello's presentations were summarily denied or ignored. More­
over the court argued vigoursely for the governments position.
Passim. To permit a forged and fraudulent plea to stand, Judge
Jones was acting like Justice Ginsburg said the Ninth Circuit
Judges did:"beyone the pale." This is not harmless error.
3) Biased Court. The court in signing the plea was now in an
adversarial position vis-a-vis the defendant. The court stead­
fastly would not entertain any motions to withdraw the plea
despite the government stating that the plea was inadequate
34

and the court stating that the original plea colloquy was inad­
equate before surreptitiously expunging the admission. The ad­
mission was somewhat artful in tha it implies that there was
another colloquy, the record shows there was only one. plea colloquy.
See Ap.D pg. 9-10. Also see App.D pg.15 and compare to App.D
pg.16. Judge Jones also takes care to remove the false assertion
that Cabello did not object to incorporation of the phantom
amendments. See line 3 of App.D pg.15. Why the court kept insist­
ing on something that was so easily disproved is puzzling. After
the defendant filed to rescuse Judge Jones, he granted motion
saying that he could no longer rule objectively because as
signatory to the plea he would in effect have to rule against
himself. An impartial judge is at the very root of constitu­
tional rights, i.e., the right to a judge who follows the consti­
tution and Supreme Court precedent as well as Appeals court
precedent and upholds their oath of office. See, e.g. Neder
v. United States, at 527 US 8. Also see Turney v. Ohio, 273 US
510, 523 (1927). Biased trial judge is structural error and
is thus subject to automatic reversal. The courts general dispo­
sition towards the defendant is illustrated at a March 13, 2013
hearing, about a Writ of Mandamus.
The Defendant: And, in fact, your honor, I would like to
ask the court to grant me leave to appeal to the Ninth
Circuit.
The Court: I'm not granting you anything.
See App.D pg.29
Regardless of legal merit, rule of law, the constitution,
court rules, normal procedures, the court's disposition was:
I m not granting you anything." All of Cabello's attempts to
35

be heard fell upon unwilling ears. This is bias 101.
4) Sixth Amendment Violations.
Mr. Gerarld Boyle had been Cabello's lawyer for 15 years and
was familiar with all the facets of the case and had signaled
that he would seek a speedy trial. Mr. Boyle actually had a
strategy of defense for his client. Threats . of prosecution
coerced him off the case. Right to counsel of choice is the
very root of the guarantee under the Sixth Amendment. The govern­
ment was able to disqualify Mr. Boyle by merely asserting that
he had a "conflict of interest" (sic). Which Mr. Boyle said
was absurd. The court pretended that it would have a hearing
"to find out what the facts are that are disputed." That hearing
never happened, dispite the Supreme Court holding that a hearing
involving the disqualified attorney must be held. Cuyler v.
Sullivan, Supra. Also see App.D pg. 1—4. This is an open denial
of due process and a denial of counsel of choice. A violation
of Cabello's Fifth and Sixth Amendment rights in one fell swoop.
Panel attorney Mr. Michael Smith having placed a null,
void, and illegal plea that caused a jumble in the court, did
not ever state who forged the petition, completes the hat trick
by vanishing and apparently fell off the Earth because he was
everafter unavailable. Mr. Smith had to know that a plea cannot
be amended. Yet he would not, or could not object, on the contrary,
he did all he could to support the government and court position
except sign. This plea petition compelled the government to
violate federal law and the only thing that it did for his client
was leave him with open sentencing. This is ineffective lawyer­
ing made manifest. Appellate attorney Mr. Weppner having many
36

issues that the defendant argued in court disregards Cabello's
pleas and makes an argument that Cabello never made. A narrow
and esoteric argument that one of the judges at the oral argu­
ment asked Mr. Weppner, "That’s a tough standard of review,
isn't it?" See YouTube Case #13-30080 3/2/15 location: Portland,
OR. Mr. Smith and Mr. Weppner are ineffective attorneys personified.
5) Fraud on the court. The facts are out in the open. This Honor­
able Court will not find it difficult to "suss" them out. The
constitution does not conjecture a legal system that would permit
this type of open "legerdemain". The district court and the
circuit court however do, and with great vigor. The District
Court would only let the government present hearings to incrim­
inate Cabello further. These hearings were superfluous in that
Cabello had already pleaded to two counts. The defendants efforts
to have hearings to determine who forged the plea were ignored
as were his pleas to have a hearing about counsel of choice.
The defendant was not heard. All defendants have due process
rights regardless of the evidence against them. All of the above
are not harmless error. See App.D pg.21. The court is expected
to avoid using the wisdom of hindsight and should test the signers
conduct by inquiring what was reasonable to believe at the time
the pleading, motion, or other paper,was submitted. Rule 11
applies to anyone who signs a pleading, motion, or other paper.
This court has sufficient discretion to take account of the
special circumstances that often arise in pro se situations.
See Haines v. Kerner, 404 U.S. 519 [30 L.Ed.2d 652] (1972).
There is no ambiguity in the statutory text of 1512(c)(1), it
37

is quite clear. There is nothing

to infer. When the statutory

text is clear, courts need not, consider extra-textual evidence.
(Roberts, Ch.j. joined by Kennedy, Thomas, Alito, and Gorsuch,
JJ.) L.Ed.Digest:Statutes §164.
CONCLUSION
The indispensable elements of this motion are: (1) a judgeemnt which ought not, in equity and good conscience be enforced;
(2) This is a true 60(b) motion in that it attacks not the subst­
ance of the courts action but impugns the integrity of the pro­
ceedings themselves. See Gonzalez v. Crosby, 545 US 524, 535,
125 s.ct. 2641 163 L.Ed 480 (2005). The actions of the court
and government were as far a departure from the usual course
of judicial proceedings as this honorable court is likely to
see. See Supreme Court rule 10(a). The C0A inquiry asks only
if the district courts decision is debatable. See Miller-el
v. Cocrell, 537, US 322, 123, S.ct. 1029 (2003). The government
tacitly agrees by conceding that they are true by not denying
them. To AUSA Ms. Zusmans credit she does not repeat AUSA Mr.
Edmonds falsehoods and misrepresentations, save for the in limine
violation. The violations of federal law are a continuing violation
as the government continues to defend these violations and has
never moved to correct the record. These acts pass the facial
plausability standard and the "shock the conscience" standard.
• -•••. • -;

The repeated violations of federal law and repeated violations
of defendants 5th and 6th Amendment rights rise to the level
of extraordinary circumstances to satisfy the standards of 60(b)
(6). The plea petition is clearly null, and void, and rises
to the level of extraordinary circumstances to satisfy the
38

standards of 60(b)(4). Moreover there was only one presenter
in the court, the defendant was never heard. All of the acts
in this petition are a misfit in a country professing equal
justice for all. It was by thunder-dint of forgeries, misrep­
resentations, that the government obtained the judgement. The
government response does not deny this. See App.C. Also Rule
8(b)(6). Honorable circuit Court Judges M.Lee and Smith erred
in overlooking these blantant constitutional violations and
violations of Federal Law by declining to grant a COA. See App.
A pg.3. Although district judge ordinarily has broad discretion
in application of FRCP 60(b) such is not true with respect to
mot ions brought under‘6Gi(b) (4).

See U.S. v. Indoor Cultivation

Equip, from High Tech Indoor Supply, 55 F.3d 1311, 31 Fed.R.
Serv.3d (callaghan) 832 (7th Cir. 1995). After all null and
void is null and void. There is no wiggle room.
The district court did not issue or decline to issue a
COA in its original opinion on Oct. 18, 2019. See App.A pg.1.
Ordered to grant or deny a COA by Peter L. Shaw, Appellate Commisioner, Judge Mosman declined to issue a COA because defendant
failed to make a substantial showing of the denial of a consti­
tutional right on Nov. 19, 2019. See App.A pg.2. For the appellate
commissioner to have to remind an experienced Federal Judge
that he has to grant or deny a COA and to have to cite case law
to the Chief Judge of the Oregon District Court to grant or
deny a COA seems awkward, and passing strange. See App.A pg.
4-5. This kind of offhand treatment of the instant case seem­
ingly without any forethought is emblematic of how this case

39

has been treated all along.
case U.S.
As Justice Ginsburg wrote in another 9th Cir.
v. Sineny-Smithy supra the sanctioning of this vast departure
from the accepted and usual course of judicial proceedings,
is beyond the pale. In no other

circuit would the governments

be tolerated. At no time were
open violation of Federal Law
the proceedings in conformance with either the constitution
of the United States or Fed.R.Crim.P.11. See Rule 10(a). The
question still remains, who altered the plea petition? Who forged the extra counts? There is

much here that merits further

exactly what they seem
review. However discomfitting, things are
to be. This court should grant a Writ of Certiorari.

Dated:

, 2020
Respectfully Submitted,

Archie Cabello
pgg ^ No. 73097-065
Federal Correctional Institution
La Tuna P.O. Box 3000
____
Anthony, TX/NM 88021

40

